Theodore B. Olson
Direct: +1 202.955.8668
Fax: +1 202.530.9575
TOlson@gibsondunn.com

October 8, 2019
VIA HAND DELIVERY AND ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

All Am. Check Cashing, Inc., et al. v. Consumer Fin. Protection Bureau,
No. 19-432

Dear Mr. Harris:
I am counsel of record for petitioners in the above-referenced case.
Pursuant to Rule 37.2(a) of the Rules of this Court, petitioners hereby grant
blanket consent to the filing of amicus curiae briefs in support of either or no
party, provided that the amicus curiae brief otherwise complies with the Rules of
this Court.
Sincerely,
/s/ Theodore B. Olson
Theodore B. Olson
cc: Noel J. Francisco, Counsel for Respondent

